No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FEDERAL BUREAU OF INVESTIGATION, ET AL., PETITIONERS
v.
YASSIR FAZAGA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 17th day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,778 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on December 17, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 17, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: FBI, et al. v. Fazaga, et al.
AHILAN THEVANESAN ARULANANTHAM
ACLU FOUNDATION OF SOUTHERN CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES, CA 90017
aarulanantham@aclu-sc.org
PETER BIBRING, ESQ.
ACLU OF SOUTHERN CALIFORNIA
SUITE 230
140 S. LAKE AVENUE
PASADENA, CA 81101
213-977-5295
pbibring@aclu-sc.org
DAN STORMER
HADSELL STORMER & RENICK LLP
128 NORTH FAIR OAKS AVENUE
PASADENA, CA 91103
626-585-9600
dstormer@hadsellstormer.com
KATIE MORAN, ESQ.
WILMER CUTLER PICKERING HALE AND DORR LLP
350 S GRAND AVENUE
SUITE 2400
LOS ANGELES, CA 90017
213-443-5300
CATHERINE CARROLL
WILMER CUTLER PICKERING HALE AND DORR LLP
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-663-6000
Catherine.carroll@wilmerhale.com
ALEXANDER COTE
SCHEPER KIM & HARRIS LLP
800 WEST SIXTH STREET
18TH FLOOR
LOS ANGELES, CA 90017-2701
213-613-4655
acote@scheperkim.com

